- App. 1 APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-3094
Charles V. Schneider
Appellant
v.
Commissioner of Internal Revenue
Appellee
Appeal from The United States Tax Court
(010660-17)
JUDGMENT
Before KELLY, WOLLMAN, and GRASZ, Circuit Judges.
The appeal is dismissed as moot.
March 19, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Is/ Michael E. Gans

- App.2 APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-3094
Charles V. Schneider
Appellant
v.
Commissioner of Internal Revenue
Appellee
Appeal from The United States Tax Court
(010660-17)
ORDER
The petition for rehearing is denied as overlength.
June 10, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

■ App. 3 -

APPENDIX C
UNITED STATES TAX COURT
WASHINGTON, DC 20217 PA

CHARLES V. SCHNEIDER,)
Petitioner(s) ) Docket No. 10660-17L
v.)
COMMISSIONER OF INTERNAL REVENUE, )
Respondent )
ORDER AND DECISION
This collection review case is an appeal of the
Notice of Determination Concerning Collection
Action(s) Under Section 6320 and/or 6330 (notice of
determination), of the Internal Revenue Service (IRS)
Office of Appeals (Appeals), sustaining the proposed
levy to collect petitioner's unpaid Federal income tax,
including penalties and interest, for taxable year
2011. Petitioner timely filed a petition with the Court.
This case is before the Court on respondent's Motion
for Summary Judgment and for Penalty Under
Section 6673, filed on December 1, 2017, pursuant to
Rule 121.1 Respondent attached the Declaration of
Shaina Boatright, senior attorney for respondent,
with attached exhibits in support of the motion. On
December 11, 2017, petitioner filed an objection to
respondent's motion.
Background
The record establishes and/or the parties do not
dispute the following information. Petitioner resided
in the State of Missouri at the time that the petition
was filed with the Court.

- App. 4 Petitioner did not file a Federal income tax
return for 2011. As a result, respondent prepared a
substitute for return for petitioner pursuant to section
6020(b), and mailed a notice of deficiency for 2011 to
petitioner on September 2, 2014. On December 8,
2014, petitioner timely filed a petition with this Court
at Schneider v. Commissioner. Docket No. 29122-14,
seeking review of the notice of deficiency. In his
petition, petitioner challenged the proposed
deficiency, asserting that he is not liable for income
tax because the amounts received by him were not
taxable income. On September 1, 2016, in Schneider
v. Commissioner. Docket No. 29122-14, the Court
granted respondent's motion for summary judgment
and imposed a penalty of $2,500
i

Unless otherwise specified, all section
references are to the Internal Revenue Code of 1986,
as amended and in effect for the year at issue, and all
Rule references are to the Tax Court Rules of Practice
and Procedure.
SERVED Jul 03 2018
-2-

under section 6673. The Court also ordered and decided
that for 2011 there was (l) a deficiency in tax due of
$7,606; (2) an addition to tax due under section 6651(a)(1)
of $1,711.35; (3) an addition to tax due under section
6651(a)(2) of $1,026.81; and (4) an addition to tax due
under section 6654(a) of $150.58. Pursuant to the Court's
order and decision, respondent assessed the income
taxes, additions to tax and section 6673 penalty
determined by the Court plus interest.

- App. 5 On November 10, 2016, respondent mailed
petitioner a Final Notice - Notice of Intent to Levy and
Notice of Your Right to a Hearing (final notice). See
sec. 6330(a). On December 1, 2016, petitioner timely
filed a Form 12153, Request for a Collection Due
Process or Equivalent Hearing (CDP hearing), in
which he challenged the levy proposed by respondent
for 2011. In his Form 12153 petitioner requested a
face-to-face CDP hearing in Kansas City, Missouri,
and declined to provide a telephone number, writing
instead "Written Correspondence Only". On January
18, 2017, Settlement Officer Monica Garcia (SO
Garcia) was assigned to petitioner's case.
On January 27, 2017, SO Garcia mailed
petitioner a letter advising him that Appeals had
received his Form 12153 and would hold a
correspondence hearing with him. SO Garcia
informed petitioner that a face-to-face hearing would
be held to discuss potential collection alternatives
only if he provided her with a signed, completed, and
substantiated Form 433-A, Collection Information
Statement for Wage Earners and Self-Employed
Individuals, and signed tax returns for taxable years
2012, 2013, 2014, and 2015 by February 27, 2017. SO
Garcia indicated in her letter that she had reviewed
petitioner's administrative record and transcripts of
his account. As a result of this review, SO Garcia
advised petitioner that he was precluded from
disputing the existence or amount of the underlying
tax liability in his CDP hearing as he had a prior
opportunity to dispute the tax liabilities before the

- App. 6 Court in Schneider v. Commissioner, Docket No.
29122-14 (Sept. 1, 2016). See sec. 6330(c)(2)(B).
SO Garcia also stated in her letter that based on her
review it appeared that the IRS satisfied the legal and
administrative procedures required to issue petitioner
the final notice.
On February 16, 2017, petitioner faxed and
mailed to respondent a letter containing contentions
about oath swearing, accusations that SO Garcia was
failing to uphold her constitutional duty, a statement
that he is not liable for the taxes at issue, and a
number of tax defier arguments, None of the
information requested by SO Garcia in her January
27 letter was attached. On March 3, 2017, SO Garcia
mailed petitioner a second letter, in which she denied
petitioner's request for a face-to-face hearing for
failing to provide any of the requested information
needed to consider such a hearing, reiterated her prior
request for such information, and extended the
submission deadline to March 17, 2017. On March 22,
2017, SO Garcia received a packet in the mail from
petitioner that contained multiple final notices
concerning taxable years 2010 and 2011; however, the
final notices were dated/issued after respondent
received the Form 12153. Again, none of the
information requested by SO Garcia was attached.
On April 6, 2017, SO Garcia issued a notice of
determination sustaining the proposed levy with
respect to petitioner's unpaid income tax, penalties,
and interest due for 2011. The notice of determination

- App. 7 stated that respondent had determined that all
appropriate requirements of law and administrative
procedures for the proposed collection action were
met. In response, petitioner timely filed a petition with
this Court on May 15,2017. See sec. 6330(d)(1); Rules
-3-

330-334. of frivolous arguments including: (l) "There
is no such lawful thing as a 'substitute tax return'"; (2)
"'Income' is not defined in Title 26 U.S.C., Internal
Revenue Code"; (3) "Petitioner had NO taxable
'income' since his revenues/receipts do not constitute
'income' within the meaning of the Sixteenth
Amendment"; (4) "there can be no lawfully-assessed
'income tax' nor any 'liability'"; (5) "Petitioner is NOT
a 'person liable for any tax imposed by [Title 26
U.S.C.]’" per section 6011; (6) he is not a "taxpayer" as
defined in section 770l(a)(l4); and (7) "There is no
law/statute that makes Petitioner liable for the
'income tax'" so he cannot be required to pay any tax,
penalty, or interest.
Respondent filed his Answer on June 29, 2017.
In the Answer, respondent alleged that petitioner has
been warned by the Court five times prior to this case
against the use of the frivolous arguments outlined
supra. These five cases are all captioned Schneider v.
Commissioner, with Docket Nos. 4759-07, 25463-08L,
12944-10, 17566-14 and 29122-14.2
This is
petitioner's sixth case before this Court in which he

f:
- App 8 continues to assert the same frivolous arguments.1
Petitioner has also asserted the same arguments in a
seventh case, Schneider v. Commissioner. Docket No.
15652 17, which concerns taxable year 2012.and is
currently pending before the Court. In the instant
case, petitioner filed a Reply to Answer on August 12,
2017, in which he reasserted a number of the frivolous
arguments previously made in his petition. As
previously stated, on December 1, 2017, respondent
filed a Motion for Summary Judgment, to which
petitioner filed an Objection on December 11, 2017.
Discussion

,!

A.'. ' Summary Judgment ' 1
1 \4

~
* .

.

t

^

Summary judgment is intended to expedite
litigation and avoid unnecessary and expensive trials.
Fla. Peach Com, v. Commissioner. 90 T.C. 678, 681
(1988). Summary judgment may be granted with
respect to all or any part of the legal issues in
controversy "if the pleadings, answers to
interrogatories, depositions, admissions, and any
other acceptable 'materials, together with the
affidavits or declarations, if any, show that there is no
genuine dispute as to any material fact and that a
decision may be rendered as a matter of law."' Rule
•

' '

'

'

' '"

* i} ,

2 Docket No. 4759-07, concerning taxable year
2004, was dismissed for failure to state a claim.
Docket No. 25463-08L, concerning taxable year 2004,
was disposed of by a Motion for Summary Judgment.
The Order of Dismissal and Decision imposed a $2,500
penalty under sec. 6673. Docket No. 12944-10, concern-

- App 10 grant summary judgment, the factual materials and
inferences drawn from them must be considered in the
light most favorable to the moving party. See FPL
Grp,, Inc, v. Commissioner. 115 T.C. at 559; Bond v.
Commissioner. 100 T.C. at 36; Naftel v.
Commissioner. 85 T.C. at 529. Whether facts are
material depends upon the context in which they are
raised and the legal issues presented. Casanova Co.
v. Commissioner. 87 T.C. 214, 217 (1986).
When the moving party has carried its burden,
however, the party opposing the summary judgment
motion must do more than simply show that "there is
some metaphysical doubt as to the material facts."
Matsushita Elec. Indus. Co. v. Zenith Radio Corn.. 475
U.S. 574, 586 (1986). Rule 121(d) imposes a duty on
the nonmoving party to "set forth specific facts
showing that there is a genuine dispute for trial", thus
not allowing an adverse party to rest upon the mere
allegations or denials of such party’s pleadings. See
Ramdas v. Commissioner. T.C. Memo. 2013-104, at
*18. Where the record viewed as a whole could not
lead a reasonable trier of fact to find for the
nonmoving party, there is no "genuine issue for trial".
Matsushita Elec. Indus. Co. v. Zenith Radio Corn.. 475
U.S. at 587. After review of the record in this case, the
Court is satisfied that no material facts are in dispute
and that respondent is entitled to a decision as a
matter of law.
B.

Hearings Under Section 6330

- App 11 ■

Section 6301 empowers the Secretary to collect
the taxes imposed by the internal revenue laws. To
further that objective, Congress has provided that the
Secretary may effect the collection of taxes by, among
other methods, hens and levies. See generally Living
Care Alts, of Utica. Inc, v. United States, 411 F.3d
621, 624-625 (6th Cir. 2005).
Section 6331(a)
authorizes the Secretary to levy upon all property or
property rights of any person liable for taxes
(taxpayer) if the taxpayer fails to pay the tax within
10 days after notice and demand for payment is made.
When the Secretary pursues collection by levy,
he must notify the affected taxpayer in writing of his
right to a CDP hearing with an impartial Appeals
employee (Appeals officer). See sec. 6330(a) and (b). At
the hearing the taxpayer may raise any relevant
issue, including challenges to the appropriateness of
the collection actions and possible collection
alternatives such as an installment agreement. Sec.
6330(c)(2)(A). Additionally, the taxpayer may
challenge the existence or amount of the underlying
tax liability, but only if he did not receive a notice of
deficiency with respect to, or otherwise have an
opportunity to dispute, it. See sec. 6330(c)(2)(B).
Following the hearing, the Appeals officer must
issue a notice of determination concerning the
proposed collection action. See sec. 301.6330-1(e)(3),
-5Q&A-E8(i), Proced. &

- App 13 Woodral v. Commissioner. 112 T.C. 19, 23 (1999);
Fowler v. Commissioner, T.C. Memo. 2004163. If an
Appeals officer follows all ‘ statutory and
administrative guidelines and provides a reasoned
and balanced decision,.the Court will not reweigh the
equities. Thompson v. Commissioner. 140 T.C. 173,
179 (2013). In Walker v. Commissioner. T.C. Memo.
2014-187, at *9 * 10, we concluded that "0)t is not an
abuse of discretion for a settlement officer to refuse to
consider collection alternatives if the taxpayer does
not submit the requested financial information."
Petitioner did not at any point submit any requested
financial information despite being directed to do so
by SO Garcia in letters dated January 27, 2017, arid
March . 3, 2017. Petitioner also did not request or
propose any collection, alternatives. Therefore, SO
Garcia did riot ab‘use her" discretion by refusirig to
consider collection alternatives.
;^ •

i

-

♦

*

✓

v

^

t

*’' ‘

" •

j-

«;

r'

*

'•

• ^

'

«.

1

' . The record further shows that SO Garcia
properly. verified that the requirements of all
applicable laws and adririnistrative procedures have
been met and that the Collection action balances the
Government’s need for the efficient'collection of taxes
with petitioner's concerns that the collection action be
no more intrusive than necessary: SO Garcia provided
petitioner multiple opportunities to substantiate his
claim that he is not liable for income taxes and to
provide - information supporting a "collection
alternative. Petitioner failed to do so. Therefore, SO
Garcia'did not abuse her discretion in this case.

- App 15 their clients cwho file, petitions advancing those
petitions should not be allowed to divert and drain
away resources that ought to be devoted to bona fide
disputes"). ■' Suffice it to say that petitioner is a
taxpayer who is obliged to file a Federal income tax
return and pay Federal income tax on the taxable
income he received in 2011. See secs. 1, 61(a)(1);
United States v. Romero. 640 F.2d 1014, 1016 (9th
Cir. 1981). n
’ Section 6673(a)(1) provides that the Tax Court
may impose a 'penalty, not to exceed $25,000 if it
appears to the tCourt tliat (l) th’e^proceedings have
been instituted 'or maintained by the, taxpayer
primarily for .delay or (2) the taxpayer's position in the
proceeding is frivolous or groundless. Section
6673(a)(1) applies to proceedings,under section 6330.
See Pierson v. Commissioner. 115 T.C. 576. 581
(2000). ■ As * discussed - supra.-, * throughout these
proceedings” petitioner has ’ repeatedly asserted
frivolous • 'arguments '"that are - contrary • to wellestablished' law. * Petitioner asserted * these’ same
frivolous arguments in five prior proceedings before
this Court, three of which resulted in the' Court
ordering the imposition of a penalty of$2,500 under
section 667313 In Schneider v. Commissioner. Docket
No. * 16-4125 (Sept. 12,, 20i7), the U.S. Court of
Appeals for the Eighth Circuit agreed with this
Court's»conclusion -in Schneider v. Commissioner
Docket No. 29122-14 (Sept; 1, 2016), that petitioner's
arguments'were frivolous in nature in,affirming the
».

4

•> r

>«*-*

*

•*/,,’

• •

"j

k.

•

•

‘

I "

V

'

f

■ App. 17 ■

APPENDIX D
WILLIAM & MARY LAW REVIEW
Volume 53 I Issue 4 Article 4 (2012)
(httPs7/scholarship.law.wm.edu/wmlr/vol53/iss4/4/)
Ryan J. Owens, Ph.D., University of Wisconsin, School of Law
Harvard Law School; Ph.D. Candidate, Harvard Law School
EXPLAINING THE SUPREME COURTS SHRINKING DOCKET

(Excerpts)- fall emphases mind
Abstract
‘In recent years, the United States Supreme Court
has decided fewer cases than at any other time in its
recent history. Scholars and practitioners alike have
criticized the drop in the Court’s plenary docket. Some
even believe that the Court has reneged on its duty to
clarify and unify the law. A host of studies examine
potential reasons for the Court’s change in docket size,
but few rely on an empirical analysis of this change
and no study examines the correlation between
ideological homogeneity and. docket size.
In a comprehensive study, the authors analyze
ideological and contextual factors to determine the
conditions that are most likely to influence the size of
the plenary docket. Drawing on empirical data from
every Supreme Court Term between 1940 and 2008,
the authors find that both ideological and contextual
factors have led to the Court’s declining plenary
docket. First, a Court composed of Justices who share
largely the same world view is likely to hear forty-two
more cases per Term than an ideologically fractured
Court. Second... Congress’s decision to remove much
of the Court’s mandatory appellate jurisdiction is
associated with the Court deciding roughly fifty-four
fewer cases per [p. 1220] Term. In short, the data

- App. 18 ■

suggest that ideology and context have led to a
Supreme Court that decides fewer cases.
The Court’s docket is not likely to increase
significantly in the near future. Unless Congress
expands the Court’s mandatory appellate jurisdiction
or the President makes a series of unconstrained
nominations to the Court that increase its ideological
homogeneity, the size of the Court’s docket will
remain relatively small compared to the past. Because
the Court’s case selection process is an important
aspect of the development of the law, this Article
provides the basis for further normative and empirical
evaluations of the Court’s plenary docket.
[p. 1222]
Introduction
On April 9, 2010, Justice John Paul Stevens set
off fireworks in Washington, D.C. when he informed
the White House that he planned to retire during the
Court’s summer recess. Immediately, scholars and
journalists predicted who might succeed him, as well
as the political and legal ramifications of the selection.
Attention quickly turned to a handful of individuals:
[List omitted] Each . . . nomineeOcame to the table
with a set of unique advantages and disadvantages, to
be sure. Commentators, unsurprisingly, debated a
series of questions: Would the President nominate
from the left? Would he nominate a centrist
candidate? Would Senate Republicans filibuster the
nominee? Indeed, one news outlet expected to see a
“bruising ... confirmation battle” after Senate
Republicans signaled they would filibuster any
nominee who was “clearly outside the mainstream.

■ App. 19 ■

It is not hard to understand why attention was
focused so closely on nominee ideology and Senate
filibusters.
After all, Presidents spend political capital on
Supreme Court nominations primarily for ideological
reasons. Senators, of course, largely have the same [p.
1223] motivations, and sometimes even employ the
filibuster for purely political or ideological reasons .. .
Although the Stevens departure and elevation of
Justice Kagan to the Court has come and gone,
questions remain—questions that went ignored in the
extensive discussion of the nomination. Would the
new nominee to the Court spur it to hear more cases?
What factors led the Court to hear historically low
numbers of cases in recent Terms? And, are there
ways to increase the number ofcases the Court hears
on an annual basis?
The answers to these questions are important
for a host of reasons, not least of which is that the
Supreme Court’s impact on the law is a function ofthe
type and number of cases it hears. When the Court
fails to grant certiorari in cases that call for review, it
leaves the law unclear. And, by that standard, legal
ambiguity may be [p. 1224] rampant. The Court
decides fewer cases per Term now than at any other
time in its modern history. . . Although existing
studies advocate compelling and reasonable theories
to explain the Court’s shrinking docket, such
commentary overlooks one potentially important
feature: ideological heterogeneity on the Supreme
Court. Ideology, after all, drives much of Supreme
Court decision making. It motivates whether the

- App.20 Justices grant review . . . and the Court’s review of
lower court decisions.
[p. 1225] This Article . . . argues, in part, that
unless the political landscape becomes less polarized
and results in a less ideolosicallv diverse group of
Justices—which is not likely to happen anytime soon
— we can expect the Court to continue to decide
relatively few cases each year. In short, without a
fundamental restructuring of the political landscape,
the legal landscape for the Court, at least in terms of
its docket size, is not likely to change significantly.. .

I. THE COURT’S DEPLETED DOCKET
Today’s Supreme Court decides markedly fewer
cases than its predecessors. Justice Douglas captured
this dynamic presciently when he remarked nearly
forty years ago; “I think the Court [today] is
overstaffed and underworked... We were much, much
busier 25 or 30 years ago than we are today. I really
think that today the job does not add up to more than
about [p. 1226] four days a week.” In short, we are
witnessing the “great disappearing merits docket.”
A. How the Court Chooses to Review Cases
. . . Once the petition, is filed, the petition is randomly
assigned to one of the law clerks in the cert pool..
[p. 1227] The cert pool clerk . . . reads the petition
. . . and writes a preliminary memo that summarizes
the proceedings and legal claims. The clerk concludes
with a recommendation for how the Court should treat
the petition. The pool memo is then distributed to the
chambers of the participating Justices. Relying on the
memo, and other information, the Chief Justice
circulates a fist of the petitions he thinks deserve

- App. 21 consideration by the Court at its next conference. This
master list is called the “discuss list.” The Court
summarily— without a vote — denies petitions that
do not make the discuss list.
At conference, the Justice who placed the case on
the list — typically the Chief — leads off discussion of
the petition. That Justice then casts an agenda vote—
that is, to grant, deny, hold, or call for the views of the
Solicitor General. In order of seniority, the remaining
Justices do the same. If four or more Justices vote to
grant review, the case proceeds to the merits stage.
This informal Court rule, which requires at least four
Justices to put a case on the [p. 1228] merits docket,
is called the “Rule of Four.” There are no formal
requirements that direct Justices to grant certiorari
review. The decision is entirely discretionary to the
Court. Supreme Court Rule 10 states simply that the
Court is likely to hear cases that involve conflicts
among the lower courts, or cases that involve
important legal issues. All this is to say, then, that
the agenda-setting process the Court employs is rife
with discretion, allowing Justices to hear more, or
fewer, cases as they wish.
[worthy ofnote: nothing is said of the
absolute split between the Supreme
Court and all inferior courts on the issue
brought in the case]
B. A Descriptive View ofthe Court’s Depleted Docket
. . . the contemporary Court decides fewer cases
than any Supreme Court in modem times.
[p. 1230] Tax cases and union cases also fell short
of the Court’s attention over time. In 1946, the Court

- App.22 decided 16 tax cases. In the 2008 Term, it decided
none.
. . . [p. 1232 ] what is certain is that the Court’s
attention to some issues has wavered more than
others and, overall, the modem Court has changed
dramatically the number and types ofcases it hears.
[p. 1234]
C. ExistingExplanationsfor the Court’s DepletedDocket
The question of why the Court hears fewer and
fewer cases has produced no shortage of explanations.
Generally, these explanations fall into one of three
categories: (l) internal mechanisms and Court
composition, (2) external mechanisms, and (3) the
judicial hierarchy.
1. Internal Mechanisms and Court Composition.
To begin with, features internal to the Court may
influence how many cases the Court hears. By
internal factors, we mean those over which Justices
largely have direct control. Like many institutions,
the Supreme Court observes a set of rules that govern
its practices and procedures, and which might
influence the Court’s docket size. At the same time,
who sits on the Court can influence the agenda it sets.
These two factors—internal procedural mechanisms
and Court composition—may influence the size of its
plenary docket.
The Court’s informal rules . . . govern . . . most
importantly ... the conditions under which the Court
is most likely to grant a writ of certiorari to a petition
for [p. 1235] review. In that vein, some scholars have
argued that two informal mechanisms — the certpool
and the “Rule of Three” — either by themselves or in
combination with Court membership, have influenced

- App.23 the Court’s docket size.
The cert pool, as stated above, was generated as a
time-saving mechanism for the Justices’ chambers as
they filter out the “cert- worthy petitions from the
frivolous ones. As many argue, though, there are
tremendous pressures on law clerks in the cert pool to
recommend that the Court deny review to a petition;
clerks fear mistakenly recommending the Court grant
review on cases that could make themselves, the
Justice for whom they clerk, or the Court look foolish.
Scholars, former clerks, and even Justices themselves
wonder whether the cert pool creates an incentive for
law clerks to recommend denials and, thus, may have
led to the depleted merits docket. Kenneth Starr, for
example, contends that the cert pool has led to a
depleted docket. He suggests that to avoid personal
and institutional embarrassment, clerks in the pool
try to find as many reasons as possible to deny a
petition.
Others believe the evidence may support Starr’s
contention, as the decrease in the plenary docket
ostensibly has coincided with the rise of the cert pool.
Justice Stevens, for one, agrees with Starr’s
hypothesis: “You stick your neck out as a clerk when
you recommend to grant a case. The risk-averse thing
to do is to recommend not to take a case. I think it
accounts for the lessening of the docket.”
Former clerks also allude to this dynamic. Laura
Ingraham, once a clerk for Justice Thomas, stated:
“You’re in perpetual fear of making a mistake.” Other
clerks attribute their reluctance to a culture of
restraint. One remarked that his practice was to “find

- App.24 [p. 1236] every possible reason to deny cert,
petitions” Part of this was institutional. “[T]here is ...
the rule that anythinpr that is avoidable should be
avoided” One clerk described this rule as an
“enormous pressure not to take a castf and “an
institutionalized inertia not to grant cert.” Because
the Court treats most cases as fungible, that is, having
the same value, clerks believe that “it really [does not1
matter if the Court mafkesl a mistake in not taking a
case.” To them, “filt is better to let fthe easel have a
little extra time. because if we fdo not1 errant cert, the
Iissue] will come up again.
Moving away from anecdotal accounts, other
scholars, such as David Stras, use empirics to argue
that the cert pool may have contributed to the docket’s
decline. In his study of the cert pool, Stras examined
cert pool memoranda and compared them to the
Court’s certiorari decisions. He found that when the
cert pool recommended the Court grant cert, the Court
did so between 70 and 75 percent of the time. He also
found a strong positive correlation between the
number of grant recommendations and the number of
plenary decisions. In other words, when the cert pool
recommends the Court grant cert, the Court’s decision
to grant is strongly influenced by that recommenda­
tion. This is important in explaining the plenary
docket’s decline because the cert pool “is considerably
more stingy in making grant recommendations than
is the Court in its decisions to grant plenary review.”
Given the correlation between the cert pool and the
Court’s decision to grant cert, fewer recommendations
from the cert pool may help explain the docket’s decline.

- App.25 Although Stras cautions that the “extent of that
relationship is unclear,” he has examined and rejected
several other factors that may explain the decline
including: [p. 1237] a decline in the number of certworthy opinions, a decline in the quality of cert
petitions, and changes in personnel on-the court. In
other words, Stras’s study supports the idea that the
cert pool’s recommendations influence the Court’s
ultimate decision to grant or deny cert.
Other scholars writing before Stras’s study are less
enthusiastic about the cert pool’s ability to explain the
decline. Margaret and Richard Cordray argue that
“the cert pool has not had much systematic influence
on the votes cast by individual Justices to grant or
deny plenary review.” They claim this is the case for
two reasons. First, the Justices’ differing levels of
attention to cert petitions “does not correlate with
their participation in the pool.” In other words, one
Justice may examine petitions more closely than
another Justice, but participation in the pool does not
explain this behavior. Second, variation exists in the
Justices’ voting patterns within the cert pool. Justices
who participate in the cert pool vote to grant or deny
cert at different rates. The Cordrays argue, therefore,
that the cert pool does not influence the size of the
plenary docket.
Fn 54 : Despite the strong relationship, the data
leave room for independent judgment of the
Justices. Nevertheless, the data still support the
hypothesis that some meaningful relationship
exists between the recommendations of the cert
pool and the final decisions ofthe Justices.

■ App.26 -

[p. 1238] David O’Brien, too, suggests that no
concrete evidence shows the cert pool influenced the
plenary docket. By drawing attention to more cases,
he argues that the cert pool could have influenced the
docket’s size in either direction. On the one hand,
greater attention to detail could have highlighted
circuit splits, “which after further scrutiny are
deemed ‘tolerable’or in need of‘percolation!” But just
that kind of “highlighting” also could have caused
some Justices to grant cert to settle such circuit
divisions. He also notes “there is no evidence that
justices not in the cert pool give more attention to
petitions than those in the pool.” Put simply, O’Brien
does not think there is concrete evidence showing the
cert pool influences the Court’s docket.
How, then, do the Cordrays and O’Brien explain
the decline? In their view, the primary factor
influencing the decline is the Court’s composition.
They are not alone in this view. Preliminary support
for this hypothesis comes from Arthur Heilman and
others. Heilman contends that the Court’s
membership, and the Justices’ views of the Court’s
role in deciding cases, explain the decrease in the
plenary docket. Justices who joined the Court in the
late 1980s and 1990s, he argues, held a different view
of the Court than their predecessors. Specifically, they
believed that “a relatively small number of nationally
binding precedents is sufficient to provide doctrinal
guidance for the resolution of recurring issues.” Thus,
he argues that the view held by the new Justices
influenced the decline in the Court’s docket.
[p. 1247]... As the philosophical division between the
lower federal courts and the Supreme Court grows,

- App. 27the more often the Court must grant plenary review
to audit those lower courts.
[The philosophical division between the lower
federal courts and the Supreme Court (in this
matter) has ostensibly reached the tipping
point]
Thus, as the lower courts and Supreme Court - [p.
1248] become more ideologically congruent, the
Supreme Court’s need to audit lower courts decreases.
... As the distance between the Supreme Court and a
circuit grows, the Supreme Court becomes more likely
to disagree with the lower court and, concurrently,
more likely to review that court’s decisions. Thus,
because the Supreme Court and CAx disagree
ideologically, the Supreme Court will be forced to
audit the lower court more frequently to ensure that
it complies with Court policy. Conversely, the
Supreme Court will be forced to review CAy less
frequently, as that court shares the same general
views as the Supreme Court.
[p. 1251] We argue that policymakers and the
legal community should care about the Court’s docket
size for at least four reasons. First, a [p. 1252] Court
that hears few cases leaves important legal questions
on the table. This can increase uncertainty among the
lower court judges who must apply the law and parties
who must operate within its confines. Second, a
smaller docket can lead to a Supreme Court out of
touch with the major legal issues of the day. Third, a
small docket may put the Court in a position to be
“captured” by certain interests or actors. And, finally,
a small docket might cause public opinion to turn
against the Court, leading to a loss oflegitimacy for

- App.28the institution whose strongest reservoir of power is
legitimacy.
A. A Depleted Docket Risks Leaving Important Cases
Undecided
Justice White viewed the Supreme Court as the
unifier of law. He believed that the Court should
resolve as many circuit splits as possible and unify the
law. If we subscribe to Justice White’s philosophy—
that important cases, especially those that evince
conflict among the lower courts, must be reviewed by
the Court — the declining docket poses a clear and
significant problem. According to this perspective, a
depleted docket is normatively bad because it likely
means that the Court is resolving fewer circuit splits.
Justice White was not alone. Chief Justice Rehnquist,
whose tendency to grant cert admittedly fell during
his tenure, also believed that the law needed
clarification and unification. He thought that cases
[p. 1253] should be resolved, not stewed until tender:
“[T]o ... suggest that it is actually desirable to allow
important questions of federal law to ‘percolate’ in the
lower courts for a few years before the Supreme Court
takes them on seems to me a very strange suggestion;
at best it is making a virtue of necessity.” Chief
Justice Rehnquist was concerned with the need to
decide national law. He did not endorse the idea of
percolation: “We are not engaged in a scientific
experiment or in an effort to square the circle.” The
Court’s role was not, as he saw it, to allow uncertainty
in hopes of achieving the “best” outcome. It was
instead, among other things, a unifier of national

■ App. 29-

law—and that was the reason he advocated some
twenty-five years ago for the creation of something
like a national court of appeals. To him, it was
preposterous that one federal statute could produce
two rules “simply because” two circuit courts
disagreed on its meaning. In supporting a national
court of appeals, Chief Justice Rehnquist wished to
avoid forcing the Court to choose between its “active
role in constitutional adjudication and its active role
in statutory adjudication.” He believed that the Court
should decide more cases, but recognized that,
logistically, it could not. A smaller docket meant
uncertainty in the law, and, without certainty, the law
does not serve one of its main purposes: to demarcate
the boundaries within which people can act legally
and without retribution.
To be sure, concern over the Court’s docket size
may depend on how one perceives the Court’s role.
Justice Brennan, for example, thought that part of the
Court’s role was “to define the rights [p. 1254]
guaranteed by the Constitution.” He believed the
Court’s ability to do this increased as the number of
cases it decided increased. When the Court hears and
decides more cases, he argued, it clarifies —and
probably expands—the meaning of important
constitutional principles. As such, rights are
enhanced, as is the power of the Court. Even if one
believes, alternatively, that the Court should take a
more passive role, a small docket nevertheless might
diminish the Court’s importance. A small docket could
afford the Court less opportunity to put its stamp of
approval on actions taken by the elected branches.
What is more, hearing

- App. 30few cases could put the Court’s importance on the line.
The Court arguably gains institutional importance by
bearing and deciding cases. And as the number of
cases on which it renders judgments declines, the
Court’s importance in policymaking could drift toward
irrelevance. Finally, as the Court's caseload declines,
the potential effect of each decision increases. On its
own, this is not necessarily a problem. Yet if the Court
miscalculates in these cases, the effects of the error
could be greater than an erroneous decision among
numerous other correct decisions. In short, the
smaller the denominator, the larger the marginal
effects of wrongly decided cases. Whatever the
appropriate role for the Court, fewer cases could
minimize the Court’s effectiveness and leave
important legal issues on the table.
[p. 1268]
2. The Certiorari Pool
Many have argued that the cert pool led to a
diminished docket, as clerks have become hesitant to
recommend a grant vote and risk making the Court
look foolish by accepting a case that is not truly certworthy. That, at least, is the view of some Justices,
law clerks, and scholars. Interviews with both
Justices and clerks confirm that a culture of restraint
permeates the pool. Clerks are reluctant to
recommend that Justices grant cert, and the Justices
understand why: in an environment in which all cases
are treated as fungible, recommending a denial ofone
more case is less risky than recommending a grant. If
one recommends denial, it is harder to call it a
“mistake, ” because the issue will confront the Court

- App. 31again. A grant recommendation forces the Court to
confront the issue now. As a result, the unwritten rule
is to avoid what you can. Accordingly, we hypothesize
that after the adoption of the cert pool, the Court’s
docket decreased.
3. Ideological Agreement Between the Supreme
Court and Lower Courts
A further hypothesis, as we discussed above,
suggests that the Court heard fewer cases during the
1980s and 1990s because of its ideological agreement
with lower federal courts. That is, scholars have
argued that the Court heard fewer cases simply
because it did not need to audit the lower courts to the
same degree as in previous Terms. There is some
anecdotal evidence to support this theory.
[p. 1269] ... we hypothesize that as the ideological
distance between the Supreme Court and lower
federal courts increased, the Court heard more cases,
and conversely, when the two were ideologically in
line, the Court heard fewer cases.
4. Membership Change
Finally... a host of scholars argue that the Court’s
depleted docket is a function of membership change.
Standing above all others in terms of docket activity,
however, was Justice White. Justice White often
dissented from the denial of cert because he thought
the Court had an obligation to grant review to
petitions showing the slightest of conflicts among the
circuits. He possessed an “unswerving view that the
Court ought not let circuit sphts linger, that it should
say what the federal law is sooner rather than later.

- App. 32[p. 1285] . . . [T]he data suggest that ideological
agreement among the Justices ought not to be
overlooked by scholars seeking to examine the condi­
tions under which the Court decides cases each Term.
In the end, then, it would appear that unless
something dramatic in thepolitical world changes, the
legal world will continue to observe low levels of
Supreme Court activity, along with the detrimental
factors that come with a fractured Court, such as
increased dissents, tolerated intercircuit conflict, and
ambiguous law. When the next Supreme Court
vacancy and nomination arises, we are sure to witness
another grueling examination of the nominee’s
ideology and background. To be sure, these issues are
critical and deserve searching scrutiny. Yet, we hope
that policymakers do not in the process continue to
neglect the Court’s broader obligation to clarify and
unify law. We hope that when policymakers debate
the merits and demerits of the nominee, they press
that person on his or her views of the Court’s docket.
Recent nominees, such as Chief Justice Roberts, have
paid lip service to the issue, but policymakers can
force the issue and persuade the Court to address
head on its obligation to provide clarity to the law.
Failure by the Court to send clearer signals could have
damaging long-term consequences for the Supreme
Court as an institution.
[ - END -]

- App. 33APPENDIX E
CONCLUSIONS OF LAW
There is no law/statute that imposes a legal
requirement for petitioner to file a federal income tax
return.
There is no law/statute that specifically defines the
legal term, “income”.
Although the Tax Court (TC) repeatedly refers to
‘liability”, it cannot show a law/statute that establishes
such liability upon petitioner for any tax imposed by
subtitle A of Title 26, U.S.C (IRC).
Neither the judges of the TC nor of the Court of
Appeals for the Eighth Circuit (COA) offer any conclusions
of law - in fact, neither court even recognizes ‘legislative”
facts (the law as written by the legislature).
The TC reiterates alleged facts purported by the
respondent but offers no laws/statutes nor any separately
stated conclusions of law substantiating such claims.
The TC states “petitioner did not file a federal
income tax return for 2011” but fails to state any statute
or conclusion of law requiring such legal duty.
The TC acknowledges that “petitioner contends
that he did not receive income” but the court cannot
identify a statute rebutting such a contention nor identify
any statute defining income or assigning any specific, legal
description of petitioner’s financial receipts.

1

- App. 34 The COA has offered no reasoned decision or
explanation — as shown in Appendix “A”.
The TC has disregarded all legislative facts
presented by petitioner and only offered specious phrases
as: “no specific reasons”; “any such explanations”; “no
specific factual reasons”; or “any factual support”.
The TC cites only §§ 6651, 6654 & 6673 of the IRC
but purposely DOES NOT dte any statutory foundation
for the imposition of those sections. It cannot show any
statute that specifically establishes a legally-sound basis
upon which any “failure” can be adjudged. Neither can it
show any statutory justification for its determination of
“delay”, “frivolity”, or “failure to pursue administrative
remedies”.
Upon the granting of this petition, petitioner’s brief
will establish irrefutable proof of judicial fraud,
malfeasance, misfeasance, and mendacity.

